Appendix

1

Case: 19-56257, 12/14/2020, ID: 11927112, DktEntry: 3, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
ANDREW CHAPNICK,

No.

19-56257

DEC 14 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

D.C. Nos.

2:16-cv-04185-SVW
2:16-cv-04278-SVW
2:02-cr-00144-SVW-1
2:02-cr-00145-SVW-1
Central District of California,
Los Angeles

Defendant-Appellant.
ORDER
Before:

BYBEE and HURWITZ, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 2) is denied
because appellant has not shown that “jurists of reason would find it debatable
whether the [section 2255 motion] states a valid claim of the denial of a
constitutional right and that jurists of reason would find it debatable whether the
district court was correct in its procedural ruling.” Slack v. McDaniel, 529 U.S.
473, 484 (2000); see also 28 U.S.C. § 2253(c)(2); Gonzalez v. Thaler, 565 U.S.
134, 140-41 (2012); Miller-El v. Cockrell, 537 U.S. 322, 327 (2003); United States
v. Blackstone, 903 F.3d 1020, 1022-23 (9th Cir. 2018), cert. denied, 139 S. Ct.
2762 (2019); United States v. Watson, 881 F.3d 782 (9th Cir.), cert. denied, 139 S.
Ct. 203 (2018).
Any pending motions are denied as moot.
DENIED.

App. 1a

Case 2:16-cv-04278-SVW Document 22 Filed 10/29/19 Page 1 of 6 Page ID #:380

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

2:16-CV-04185-SVW/2:16-cv-4278-SVW
2:02-cr-00144-SVW

Date

Title

Andrew Chapnick v. United States of America

10/29/2019

JS-6
Present: The Honorable

STEPHEN V. WILSON, U.S. DISTRICT JUDGE

Paul M. Cruz

N/A

Deputy Clerk

Court Reporter / Recorder

Attorneys Present for Plaintiffs:

Attorneys Present for Defendants:

N/A

N/A

Proceedings:

I.

IN CHAMBERS ORDER DENYING PETITIONER’S MOTION TO
VACATE, SET ASIDE, OR CORRECT SENTENCE [1]

Background

On June 12, 2004, Petitioner Andrew Chapnick was convicted of one count of conspiracy to
commit bank robbery in violation of 18 U.S.C. §§ 371, 2113(a) and one count of bank robbery in
violation of 18 U.S.C. § 2113(a). Dkt. 1 at 1; Dkt. 12 at 1. Petitioner was also convicted of two counts of
bank robbery in violation of 18 U.S.C. § 2113(a), three counts of armed bank robbery in violation of 18
U.S.C. §2113(a), (d), and carrying and brandishing a firearm during a crime of violence in violation of
18 U.S.C. § 924(c). Id. Petitioner was sentenced to a total term of 272 months of imprisonment. Dkt. 12
at 1. Prior to defendant’s sentencing hearing, the Probation Office determined that defendant was a
career offender under U.S.S.G. § 4B1.1. Id.
On June 13, 2016, Petitioner filed a motion under 28 U.S.C. § 2255 to vacate, set aside, or
correct his sentence. Dkt. 1. The Government filed an opposition to the motion on November 3, 2016.
Dkt. 12.
II.

Legal Standard

A federal prisoner making a collateral attack against the validity of his conviction or sentence
must do so by way of a motion to vacate, set aside, or correct the sentence pursuant to § 2255, filed in

:
Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

App.Page2a1 of

6

Case 2:16-cv-04278-SVW Document 22 Filed 10/29/19 Page 2 of 6 Page ID #:381

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

2:16-CV-04185-SVW/2:16-cv-4278-SVW
2:02-cr-00144-SVW

Date

Title

Andrew Chapnick v. United States of America

10/29/2019

the court which imposed the sentence. United States v. Monreal, 301 F.3d 1127, 1130 (9th Cir. 2002).
Under § 2255, the federal sentencing court may grant relief if it concludes that a prisoner in custody was
sentenced in violation of the Constitution or laws of the United States. Davis v. United States, 417 U.S.
333, 344-45 (1974); United States v. Barron, 172 F.3d 1153, 1157 (9th Cir. 1999). To warrant relief, a
petitioner must demonstrate the existence of an error of constitutional magnitude which had a
“substantial and injurious effect or influence” on the guilty plea or the jury’s verdict. Brecht v.
Abrahamson, 507 U.S. 619, 637 (1993); see also United States v. Montalvo, 331 F.3d 1052, 1058 (9th
Cir. 2003) (“We hold now that Brecht’s harmless error standard applies to habeas cases under section
2255, just as it does to those under section 2254.”). Relief is warranted only where a petitioner has
shown “a fundamental defect which inherently results in a complete miscarriage of justice.” Davis, 417
U.S. at 346; see also United States v. Gianelli, 543 F.3d 1178, 1184 (9th Cir. 2008).
A motion filed under § 2255 must be filed within a year of:
(1) the date on which the judgment of conviction becomes final;
(2) the date on which the impediment to making a motion created by
governmental action in violation of the Constitution or laws of the United
States is removed, if the movant was prevented from making a motion by
such governmental action;
(3) the date on which the right asserted was initially recognized by the
Supreme Court, if that right has been newly recognized by the Supreme
Court and made retroactively applicable to cases on collateral review; or
(4) the date on which the facts supporting the claim or claims presented
could have been discovered through the exercise of due diligence.
28 U.S.C. § 2255(f).
III.

Analysis
A.

Section 924(c)

In Johnson v. United States, 135 S. Ct. 2551, 2554 (2015), the Supreme Court held that the

:
Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

App.Page3a2 of

6

Case 2:16-cv-04278-SVW Document 22 Filed 10/29/19 Page 3 of 6 Page ID #:382

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

2:16-CV-04185-SVW/2:16-cv-4278-SVW
2:02-cr-00144-SVW

Date

Title

Andrew Chapnick v. United States of America

10/29/2019

“residual” clause of the Armed Career Criminal Act (“ACCA”) was void for vagueness. 18 U.S.C.A. §
924(e)(2)(B). Petitioner argues that the holding in Johnson renders the similarly worded residual clause
contained in § 924(c)(3)(B) unconstitutionally vague and, thus, that his second predicate offense for
unarmed bank robbery and instant conviction for armed bank robbery cannot qualify as “crimes of
violence” under that clause. Dkt. 1 at 14-24, 27-29. Indeed, in United States v. Davis, 139 S. Ct. 2319
(2019), the Supreme Court recently determined that the residual clause in § 924(c)(3)(B) is
unconstitutionally vague on similar logic to that applied in Johnson. Id. at 2336. Petitioner then argues
that unarmed bank robbery and armed bank robbery in violation of §§ 2113 (a), (d) are not “crimes of
violence” under the “force” clause of § 924(c)(3)(A). Dkt. 1, at 14-22. Thus, Petitioner contends that he
was unconstitutionally convicted of crimes of violence.
At the time Petitioner filed this motion, the question of whether unarmed bank robbery and
armed bank robbery as defined in § 2113 qualified as crimes of violence under either the force clause or
residual clause of § 924(c) was an unsettled question in this circuit. However, this question has since
been definitively resolved. In United States v. Watson, the Ninth Circuit held that both unarmed bank
robbery and federal armed bank robbery remain crimes of violence within the meaning of § 924(c) under
the force clause. 881 F.3d 782, 785-86 (9th Cir. 2018) (holding that “bank robbery qualifies as a crime
of violence because . . . [it] requires at least an implicit threat to use the type of violent physical force
necessary to meet the Johnson standard,” and that “[b]ecause bank robbery . . . is a crime of violence, so
too is armed bank robbery”) (internal citation and quotation marks omitted). This holding is binding on
this Court and thus precludes Petitioner’s § 924(c) arguments. See United States v. Rodgers, 2018 WL
3031817, at *2 (C.D. Cal. June 18, 2018).
B.

Career Offender Status

Petitioner also argues that, in light of Johnson, Petitioner was unconstitutionally classified as a
career offender for sentencing purposes. Dkt. 1, at 4-8. This argument is based on the observation that
the career offender sentencing guideline, U.S.S.G. § 4B1.2, contains a residual clause with the same
wording as § 924(c)’s residual clause, and on the argument that California burglary pursuant to Cal.
Penal Code § 4591 and California robbery pursuant to Cal. Penal Code § 211 are not crimes of violence
1

The Supreme Court has held that California burglary is no longer a crime of violence under the
enumerated clause of the career offender guideline. See Descamps v. United States, 133 S. Ct. 2276 (2013).

:
Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

App.Page4a3 of

6

Case 2:16-cv-04278-SVW Document 22 Filed 10/29/19 Page 4 of 6 Page ID #:383

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

2:16-CV-04185-SVW/2:16-cv-4278-SVW
2:02-cr-00144-SVW

Date

Title

Andrew Chapnick v. United States of America

10/29/2019

within the meaning of U.S.S.G. § 4B1.2(a)(1)-(2). Because Chapnick filed this motion almost exactly
twelve years after his conviction and only asserts arguments that recent caselaw has rendered his
sentence “illegal”, Dkt. 1., at 30, his motion is time-barred on this issue under 28 U.S.C. § 2255(f)
unless he can show that retroactive applicability on collateral review is appropriate under § 2255(f)(3).
In Beckles v. United States, 137 S. Ct. 886, 895 (2017), the Supreme Court held that the federal
advisory Sentencing Guidelines are not subject to vagueness challenges under the Due Process Clause.
However, Beckles did not directly address whether Johnson applies to a sentence like Petitioner’s, which
was imposed under the mandatory Sentencing Guidelines. Dkt. 1, at 3. This could conceivably be a basis
on which to distinguish Beckles.
However, in United States v. Blackstone, 903 F.3d 1020, 1026 (9th Cir. 2018), the Ninth Circuit
recognized that the Supreme Court has “repeatedly admonished [courts] not to advance on [their] own in
determining what rights have been recognized by the Supreme Court under AEDPA.” Blackstone noted
that the Supreme Court has not yet considered Johnson’s application to the mandatory Sentencing
Guidelines or the residual clause of § 924(c). Thus, the court held that Johnson did not announce a new
rule that is applicable to the mandatory Sentencing Guidelines or § 924(c)’s residual clause. Id. at 1028.
The court concluded: “The Supreme Court may hold in the future that Johnson extends to sentences
imposed when the Sentencing Guidelines were mandatory or pursuant to 18 U.S.C. § 924(c), but until
then Blackstone’s motion is untimely.” Id. at 1029.
The Supreme Court’s decision in United States v. Davis expressly declaring 18 U.S.C. § 924(c)
unconstitutionally vague does not alter this analysis because it did not expressly announce a new rule
that is applicable to the mandatory Sentencing Guideline at U.S.S.G. § 4B1.2(a). Indeed, in dissent
Justice Kavanaugh expressly highlights this fact, asking “who knows whether the ruling will be
retroactive?” Davis, 139 S. Ct. at 2354. Nowhere in the majority opinion does Justice Gorsuch indicate
in any way that the Supreme Court has extended either Johnson or Davis to sentences imposed when the
Sentencing Guidelines were mandatory. See generally Davis, 139 S. Ct. 2319.

However, Petitioner’s prior conviction for California robbery continues to stand as a predicate offense for career
offender purposes. See United States v. Bankston, 901 F.3d 1100, 1107 (9th Cir. 2018).

:
Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

App.Page5a4 of

6

Case 2:16-cv-04278-SVW Document 22 Filed 10/29/19 Page 5 of 6 Page ID #:384

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

2:16-CV-04185-SVW/2:16-cv-4278-SVW
2:02-cr-00144-SVW

Date

Title

Andrew Chapnick v. United States of America

10/29/2019

This Court follows Blackstone in holding that “Johnson cannot serve to extend the limitations
period under 28 U.S.C. § 2255(f)(3) and that [Petitioner’s] motion is untimely.” United States v. Saenz,
2018 WL 5785325, at *3 (S.D. Cal. Nov. 5, 2018); see also Lackey v. United States, 2018 WL 2011032,
at *3 (S.D. Cal. Apr. 30, 2018) (collecting cases showing that “[n]early all the courts in the Ninth Circuit
addressing the issue have determined that extending the reasoning of Johnson to the sentencing
enhancements of the pre-Booker Guidelines is a new rule not recognized by the Supreme Court in
Johnson”). Absent an express indication from the Supreme Court that 28 U.S.C. 2255(f)(3) should apply
retroactively to sentences imposed under the mandatory Sentencing Guidelines, this Court cannot
consider Petitioner’s arguments on these grounds.
IV.

Certificate of Appealability

Pursuant to Rule 11 of the Rules Governing Section 2255 Proceedings, a district court “must
issue or deny a certificate of appealability when it enters a final order adverse to the applicant” in § 2255
cases. Under 28 U.S.C. § 2253(c), a federal prisoner must seek and obtain a certificate of appealability
to appeal the district court’s denial of relief under 28 U.S.C. § 2255. 28 U.S.C. § 2253(c)(1). A district
judge may issue a certificate of appealability. See Fed. R. App. P. 22(b); United States v. Asrar, 116
F.3d 1268, 1269–70 (9th Cir. 1997) (holding that “district courts possess the authority to issue
certificates of appealability in § 2255”). A “certificate of appealability may issue . . . only if the
applicant has made a substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2).
To satisfy the showing required by Section 2253(c)(2), the petitioner must show that reasonable jurists
could debate whether the petition should have been resolved differently or that the issues presented are
“adequate to deserve encouragement to proceed further.” Slack v. McDaniel, 529 U.S. 473, 483–84
(2000) (citing Barefoot v. Estelle, 463 U.S. 880, 893 (1983)).
Based on its review of the record, this Court finds no issues are debatable among reasonable
jurists and no questions are adequate to deserve encouragement to proceed further. Therefore, Petitioner
is not entitled to a certificate of appealability.
V.

Conclusion
For these reasons, the Court DENIES Petitioner’s motion to vacate, set aside, or correct his

:
Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

App.Page6a5 of

6

Case 2:16-cv-04278-SVW Document 22 Filed 10/29/19 Page 6 of 6 Page ID #:385

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

2:16-CV-04185-SVW/2:16-cv-4278-SVW
2:02-cr-00144-SVW

Date

Title

Andrew Chapnick v. United States of America

10/29/2019

sentence pursuant to 28 U.S.C. § 2255. Petitioner is not entitled to a certificate of appealability.
IT IS SO ORDERED.

:
Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

App.Page7a6 of

6

